\

M. ,,

' k
s.r

APPENDIX A

'*

Case: 2

73

Document: 10

Page: 1

F

05/26/2020

NOTE: This order is nonprecedential.

UnitelJ States: Court of Sppralsf
for tljr Jfeberal Circuit
JANICE SUE TAYLOR,
Plaintiff-Appellant
v.
UNITED STATES,
Defendant-Appellee
2020-1473
Appeal from the United States Court of Federal Claims
in No. l:19-cv-01353-NBF, Senior Judge Nancy B. Fire­
stone.
ON MOTION

Per Curiam.
ORDER
Janice Sue Taylor submits an informal reply brief with
a supplemental appendix, which this court construes as a
motion to submit a supplemental appendix.
Upon consideration thereof,
It Is Ordered That:

Case:2P^3

Document: 10 1 Page: 2

2

FC \)5/26/2020

TAYLOR v. US

The motion is granted. The reply brief and supple­
mental appendix'are accepted for filing.
y :^?FORTHE OoufeT’;. ^ 5)
:• May 26, 2020 ^ ? - f f
Date
■ 11

/s/.Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

:

s29

i

:

/ s ■

:11-. /j.»

f

:

f \

:

'■

••
;

;'

■

:
' i

In the United States Court of Federal Claims
Janice Sue Taylor
Plaintiffs),
v.
THE UNITED STATES
Defendant.

)
)
)
)
)
)
)
)
)
)
)
)

Case No.
Judge

COMPLAINT
Your complaint must be clearly handwritten or typewritten, and you must sign and declare under
penalty of perjury that the facts are correct. If you need additional space, you may use another blank
page.
If you intend to proceed without the prepayment of filing fees {in fortna pauperis (IFP)), pursuant to
28 U.S.C. § 1915, you must file along with your complaint an application to proceed IFP.
1. JURISDICTION. State the grounds for filing this case in the United States Court of Federal
Claims. The United States Court of Federal Claims has limited jurisdiction {see e.g., 28 U.S.C.
§§ 1491-1509).

Defendant's maliciously and with full knowlidge, took my assets
without jurisdiction to do so. See attached Court Order.

!

I

2. PARTIES

Plaintiff, Janice Sue Taylor

., resides at

3341 Arianna Ct.
(Street Address)

Gilbert, Arizona 85298
(City, State, ZIP Code)

503 400 9026
(Telephone Number)

If more than one plaintiff, provide the same information for each plaintiff below.

RELATED CASES. Is this case directly related to any pending or previously filed cases in the
United States Court of Federal Claims?
(^) Yes (•) No
If yes, please list the case(s) below, including case number(s):

3. STATEMENT OF THE CLAIM. State as briefly as possible the facts of your case. Describe
how the United States is involved. You must state exactly what the United States did, or failed
to do, that has caused you to initiate this legal action. Be as specific as possible and use
additional paper as necessary.

The Defendant's maliciously and knowlingly took assets from me
without jurisdiction to do so, as required by law.

4. RELIEF. Briefly state exactly what you want the court to do for you.

I want the judge to give me a judgment in the amount of
$1 b,OOu,000.00 because the Defendant's have admitted the
taking of my assets, without jurisdiction to do so. See attached
Order from the Court.
1
I declare under penalty of peijury that the foregoing is true and correct.
Signed this,

day of
(day)

(month)

Signature of Plaintiffs)

Clear Form

Cover Sheet
Plaintiffs) or Petitioners)
Mantes:

Janice Sue Taylor

Location of Plaintiff(s)/Petitioner(s) (city/state): Florence, Arizona
(if this is a multi-plaintiff case, pursuant to RCFC 20(a), please use a separate sheet to list additional plaintiffs. 1

Name of the attorney of record (See RCFC 83.1(c)):
Firm Name:

N/A

__ _________________

Contact information for pro se piaintiff'petitioner or attorney of record:

P.O. Box 982

Post Office Box:
Street Address:
City-State-ZIP:

Florence, Arizona 85132

Telephone & Facsimile Numbers:

503 400 9026

F.-mail Address:

stay44@gmaii.com

Is the attorney of record admitted to the Court of Federal Claims Bar?

Ofes 0No

Nature of Suit Code: 515

Agency Identification Code:

Select only one (three digit) uature-of-su.it code imm the
attached sheet

Number of Claims Involved:

TRE

15,000,000.00

.Amount Claimed: $

Use estimate if specific amount is not pleaded.

Bid Protest Case (required for NOS 138 and 140):
Indicate approximate dollar amount of procurement at issue: $
Is plaintiff a small business?
Was this action preceded by the filing of a
protest before the GAO?
If yes, was a decision on the merits rendered?

Os ® No
0Yes® No
Yes

GAO Solicitation No.

No

Income Tax (Partnership) Case:
Identify partnership or partnership group: _____________ _______
Takings Case:
Specify Location of Property (city/state):
Vaccine Case:
Date of Vaccination:
Related Case:
Is this case directly related to any pending or previously filed
case(s) in the United States Court of Federal Claims? Uycs.youan.required to iiie a separate notice ofdirectly related case(s), See RCFC 40.2.

178

QYes @No

[

Nature-of-Suit Codes for General JurisdicL
100
102
104
106
108
110
112
114
116
118

Contract - Construction - (CDA)
Contract - Fail to Award - (CDA)
Contract - Lease - (CDA)
Contract - Maintenance - (CDA)
Contract - Renovation - (CDA)
Contract - Repair - (CDA)
Contract - Sale - (CDA)
Contract - Service - (CDA)
Contract - Supply - (CDA)
Contract - Other - (CDA)

120
122
124
125
126
128
130
132
134

Contract - Bailment
Contract - Bid Preparation Costs
Contract - Medicare Act
Contract - Affordable Care Act
Contract - Realty Sale
Contract - Subsidy
Contract - Surety
Contract - Timber Sale
Contract - Other

136 Contract - Other - Wunderlich
138 Contract - Protest (Pre Award)
140 Contract - Protest (Post Award)
200 Tax - Allowance of Interest
202 Tax - Declaratory Judgment - 28:1507
204 Tax-Estate

206 Tax - Excise
208 Tax-Gift

210
212
213
214
216
218
220
222
224
226
300
302
303
304
306
308
310
312
340
342
344
346

Tax - Income, Corporate
Tax - Income, Individual
Tax - Income, Individual (Partnership)
Tax - Informer’s Fees
Tax - Preparer’s Penalty
Tax-Railroad
Retirement/Unemployment Tax Act
Tax - TEFRA Partnership - 28:1508
Tax-Windfall Profit
Overpayment -Interest
Tax -100% Penalty - 26:6672 Withholding
Tax - Other

ases
348
350
352
354
356

Military Pay - Reinstatement
Military Pay - Relocation Expenses
Military Pav - Retirement
Military Pay - SBP
Military Pay - Other

500
502
504
506
507
508
509
510
512
513
514
515
516
518
520
522

Carrier - transportation
Copyright
Native American
Oil Spill Clean Up
Taking - Town Bluff Dam
Patent
Taking - Addicks & Barker Reservoirs
Taking - Personalty
Taking - Realty
Taking - Rails to Trails
Taking-Other
Unjust Conviction and Imprisonment
Miscellaneou s - Damages
Miscellaneous - Lease
Miscellaneous - Mineral Leasing Act
Miscellaneous - Oyster Growers
Damages
Miscellaneous - Safety Off. Ben. Act
Miscellaneous - Royalty/Penalty Gas
Production
Miscellaneous - Other
Informer’s Reward
Spent Nuclear Fuel

477
478
479
480
481
482
483
487
488
489
491
493
495
497
499

Death - Pertussis
Death - Polio - inactive
Death - Polio - other
Death - Rubella
Death - Tetanus & Diphtheria
Death - Tetanus & Tox.
Death - Other
Death - Hepatitus B
Death - Hemophilus Influenzae
Death - Varicella
Death - Rotavirus
Death - Thimerosal
Death - Trivalent Influenzae
Death - Meningococcal
Death - Human Papillomavirus

Civilian Pay - Back Pay
Civilian Pay - COLA
Civilian Pay - Disability Annuity
Chilian Pay - FLSA
Civilian Pay - Overtime Compensation
Civilian Pay - Relocation Expenses
Civilian Pay - Suggestion Award
524
Civilian Pay - Other
526
Military Pay - Back Pay
528
Military Pay-CHAMPUS
535
Military Pay - Correct records
536
Military Pay - Correct/Reinstate

Nature-of-Suit Codes for Vaccine Cases
449
453
456
457
458
459
460
461
462
463
464
465
466
467
468
469
484

Injury - Hepatitis A
Injury - Pneumococcal Conjugate
Injury - DPT & Polio
Injury -D/T
Injury - DTP/DPT
Injury - Measles
Injury - M/M/R
Injury - Measles/Rubella
Injury-Mumps
Injury - Pertussis
Injury - Polio - inactive
Injury - Polio - other
Injury - Rubella
Injury - Tetanus & Diphtheria
Injury-Tetanus&Tox.
Injury-Other
Injury-'Hepatitis B

485
486
490
492
494
496
498

Injury - Hemophilus Influenzae
Injury - Varicella
Injury - Rotavirus
Injury - Thimerosal
Injury - Trivalent Influenzae
Injury - Meningococcal
Injury - Human Papillomavirus

452
454
470
471
472
473
474
475
476

Death - Hepatitis A
Death - Pneumococcal Conjugate
Death - DPT & Polio
Death-D/T
Death - DTP/DPT
Death - Measles
Death-M/M/R
Death - Measles/Rubella
Death-Mumps

179

AGENCY CODES

AGR

Agriculture

TRN

Department of Transportation

AF

Air Force

TRE

Department of Treasury

ARM

Army

VA

Department ofVeterans Affairs

AEC

Atomic Energy Commission

VAR

Various Agencies

COM

Department of Commerce

O

Other

DOD

Department of Defense

DOE

Department of Energy

ED

Department of Education

EPA

Environmental Protection Agency

GPO

Government Printing Office

GSA

General Services Administration

HHS

Health and Human Services

HLS

Homeland Security

HUD

Housing and Urban Development

DOl

Department of the Interior

ICC

Interstate Commerce Commission

DOJ

Department of Justice

LAB

Department of Labor

MC

Marine Coips

NAS

National Aeronautical Space Agency

NAV

Navy

NRC

Nuclear Regulatory Commission

PS

Postal Service

STA

State Department

SBA

Small Business Administration

180

FORM 12. Informal Brief (Distri

. Court of International Trade, and Court c

Janice Sue Taylor
Appellant

v.

»ral Claims Cases!

Copy of Form 12
Rev. 03/16

UNITED STATES
Appellee

Case No. 20-1473

Read the Guide for Pro Se Petitioners and Appellants before completing this form. Attach a copy of the final
decision or order of the trial court. Answer the following questions as best you can. Your answers should
refer to the decision or order you are appealing where possible. Use extra sheets if needed.
1. Have you ever had another case in this court? QYes SjNo. If yes, state the name and number of each
case.
**

2. Did the trial court incorrectly decide or fail to take into account any facts??j^Yes DNo. If yes, what facts?
(refer to paragraph 7 of the Guide).
Yes, Appellants claim was based on MANDATORY STATUTES, and Respondents never once took into
account that they had violated Appellant's due process by NEVER abiding by the Statutes. .The Bbss,
the Commissioner of Internal Revenue admitted and the Tax Court Judge agreed with him that they
never sent Appellant a Statutory Notice of Deficiency or a Statutory Notice of Determination as
required by law, per USC 26 Sections 6212 and 6213(a), through the years 2000-2018..

3. Did the trial court apply the wrong law?j^Yes QNo. If yes, what law should be applied?
The Tucker Act of 1887, specifically extended the original Court of Claims jurisdiction to include
claims for liquidated or unliquidated damages arising from the CONSTITUTION (including
takings claims under the Fifth Amendment), a FEDERAL STATUTE or REGULATION, and claims
in cases not arising in tort. Specifically, the Tucker Act permits three kinds of claims against the
government: (1) contractual claims, (2) noncontractual claims where the plaintiff seeks the
return of money paid to the government and (3) noncontractual claims where the plaintiff
Asserts that he is entitled to payment by the government. Today, jurisdiction over Tucker Act
claims is vested in the United States Court of Federal Claims. The United States Court of
Federal Claims has EXCLUSIVE jurisdiction over Tucker Act claims in excess of $10,000.
Therefore, Monetary claims, Just Compensation, the taking of Private Property, Constitutional
/ Violations, Violations of Statutes and Damages for Breaches of Contracts with the Government,
are all vested acts this Court of Federal Claims has jurisdiction over. As spelled out in the
original claim and restated herein, all of the above has occurred due to breaches between the^
government and Appellant.
Page 1 of 3
( •

FORM 12. Informal Brief (District Cti

Ourt of International Trade, and Court of Fe^^^ClaimsCases)

Copy of Form 12
Rev. 03/16

4. Did the trial court fail to consider important grounds for reliefT^Yes []No. If yes, what grounds?
The trial court failed to acknowledge that once due process is denied, all claims against Appellant
become null and void. The trial court never addressed due process being denied, and with any
mention of the Tucker Act, they purposely avoided mentioning that the court had jurisdiction to hear
any of the above issues according to the Tucker Acts purpose. According to the Tucker Acts own
admission, Appellant has important grounds for relief, which were not addressed nor considered, see
above.

5. Are there other reasons why the trial court's decision was wrong?j^Yes []No. If yes, what reasons?
By Respondents own admission, on page 2, para 2, They acknowledge: "IRC 26 Section 6212 requires
the Internal Revenue Service to issue a notice of deficiency in the event of a tax payer's tax deficiency.
IRC 26 § 6213(a) authorizes the tax payer to petition the Tax Court once a notice of deficiency has been
issued. The Boss, the Commissioner of Internal Revenue and the Tax Court Judge both agreed that
they have no jurisdiction, the Tax Court judge ruled that upon the Commissioners response,Jthey had
no Jurisdiction over Appellant over the years 2000-2018. The reason they gave was becausejhey had
not issued any Statutory Notices of Deficiency or Statutory Notices of Determination through all the^
/ years 2000-2018, see enclosed Order.
The failure to issue any Statutory Notices of Deficiency or Determination, are critical to Appellant'sf case. Appellant has suffered and incurred many years of unlawful actions by the government against
her, only to now find out that the government had NO JURISDICTION TO DO THOSE THINGS TO HER, in
the first place. The Respondents are talking double talk with forked tongue. The Tucker Act specifically
says and the Respondents agreed, (pg 3 para 2), that this court provides jurisdiction over "any claim
'against the United States founded either upon the CONSTITUTION, or any ACT OF CONGRESS [Statutes
enacted] or any REGULATION, of an executive department, or upon any express or implied contract-*^' ‘
/with the United States, or for liquidated or unliquidated damages in cases not sounding in tort.Appellant declares the root of her claims are all based on Constitutionarviblations and Acts of.
Congress. She was never given the Statutory Notices, an Act of Congress, as required and.Mandatory.
This Court by its own admission does have jurisdiction over the Tucker Act in its entirety, and- ^ ^
Appellant's due process was violated under the fifth amendment to the Constitution, by not issuing the/Statutory Notices IRC 26 §§ 6212 and 6213(a) as required.
'T

6. What action to you want the court to take in this case?
I want the court to acknowledge that my case is based on the violations of Statutes of the court and
the Constitution. Which the Tucker Act specifically says this court has jurisdiction over. Respondents
Page 2 of 3

FORM 12. Informal Brief fDistrl

■irt. Court of International Trade, and Court

Jeral Claims Casesl

Copy of Form 12
Rev. 03/16

admitted they violated these Statutes against Appellant over 2000-2018, specifically USC 26 §§ 6212
and 6213(a). For the court To grant Appellant the monetary compensation she is asking for and due,
because Respondents did not apply these Mandatory Statutes that caused all of the damages and
repercusions against her. Respondents admitted in all of their Orders, they had no jurisdiction over
Appellant, through the years 2000-2018. Which is true, however Appellant suffered irreparable —
damages by Respondents not applying these Mandatory Statutes, It is a due process violation, under__
the Constitution, to not give Appellant any Mandatory Statutory Notices of Deficiency or Statutory
, Notices of Determination required by law, and Respondents have admitted they didn't issue any,,
- through all years 2000-2018, see attached. Appelllant should be awarded monetary compensation of^
$15,000,000.00 for damages incurred during these years.

7. Do you believe argument will aid the court? C]Yes J^No. If yes submit a separate notice to the court
requesting oral argument and include the reasons why argument will aid the court, (refer to paragraph 15
of the Guide).
No, I believe that honorable courts are able to read and understand the statutes and law, whether in
person or in correspondence. A honorable court knows the law and should abide by it to the tee.

8. Do you intend to represent yourself?$jYes QNo. If you have not filed and Entry of Appearance, indicate
your full name, address, telephone number and e-mail address.
Yes, I am Pro Se,
Phone:503-400-9026
Email: justamac@gmail.

Janice Sue Taylor
P.O. Box 982
Florence, Arizona 85132

9. I certify that a copy of this brief and any attachments were sent to: Director, commercial branch, civil
division, DOJ, for the attorney for appellee, at the following address: P.O. Box 480 Ben Franklin Station,
Washington D.C. 20044. (If you do not send a copy of this brief to the appellee, the court will not file the
brief) I was not sent the Attorney's name or address.
^7 /

Date

Appellant's signature

In addition to mailing a copy to the attorney for the Appellee, mail three copies of this informal brief and
attachments to:
Clerk of Court
United States Court of Appeals for the Federal Circuit
717 Madison Place NW
Washington, DC 20439
Page 3 of 3

t.

r

\

APPENDIX

£/

■

4
i't

Case: 20-1473

Document: 20

Page: 1

Filed: 08/25/2020

tHntteti States Court of Appeals
for tf)c Jfebrral Circuit
JANICE SUE TAYLOR,
Plaintiff-Appellant
v.
UNITED STATES,
Defendant-Appellee
2020-1473
Appeal from the United States Court of Federal Claims
in No. l:19-cv-01353-NBF, Senior Judge Nancy B.
Firestone.

JUDGMENT
This Cause having been considered, it is
Ordered and Adjudged:
AFFIRMED

Entered By Order Of The Court
August 25. 2020

Isl Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

®ntteb States! Court of Appeals
for tfje jfeberal Ctrcutt
JANICE SUE TAYLOR,
Plaintiff-Appellant
v.
UNITED STATES,
Defendant-Appellee
2020-1473
Appeal from the United States Court of Federal Claims
in No. l:19-cv-01353-NBF, Senior Judge Nancy B.
Firestone.

MANDATE
In accordance with the judgment of this Court, entered
August 25, 2020, and pursuant to Rule 41 of the Federal
Rules of Appellate Procedure, the formal mandate is
hereby issued.

FOR THE COURT
October 16. 2020

Is/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

«r.>

$n tf)t ^ntteb states* Court of jfrberal Claims
No. 19-1353 T
(Filed: January 27,2020)

JANICE SUE TAYLOR
Plaintiff
v

JUDGMENT

THE UNITED STATES
Defendant
Pursuant to the court’s Order, filed January 27,2020, granting defendant’s motion to
dismiss,
IT IS ORDERED AND ADJUDGED this date, pursuant to Rule 58, that plaintiff’s
complaint is dismissed for lack of subject-matter jurisdiction.

Lisa L. Reyes
Clerk of Court
By:
Deputy Clerk

MQIg: As to appeal to the United States Court of Appeals for the Federal Circuit, 60 days from
this date, see RCFC 58.1, re number of copies and listing of all plaintiffs. Filing fee is $505.00.

?

-T

i.

f

APPENDIX

f
Case: 20-1473

Document: 19

Page: 1

Filed: 08/25/2020

NOTE: This disposition is nonprecedential.

®niteti States Court of Appeals!
for tfje Jfctjeraf Circuit
JANICE SUE TAYLOR,
Plaintiff-Appellant
v.
UNITED STATES,
Defendant-Appellee
2020-1473
Appeal from the United States Court of Federal Claims
in No. l:19-cv-01353-NBF, Senior Judge Nancy B. Fire­
stone.
Decided: August 25, 2020
Janice Sue Taylor, Florence, AZ, pro se.
JANET A. Bradley, Tax Division, United States Depart­
ment of Justice, Washington, DC, for defendant-appellee.
Also represented by JOAN I. OPPENHEIMER, RICHARD E.
ZUCKERMAN.
Before LOURIE, O’MALLEY, and CHEN, Circuit Judges.

Case: 20-1473

2

Document: 19

Page: 2

Filed: 08/25/2020

TAYLOR v. UNITED STATES

Per Curiam.
Janice Sue Taylor appeals from a final decision of the
U.S. Court of Federal Claims dismissing her complaint for
lack of subject-matter jurisdiction. Taylor v. United States,
No. 19-1353-T, 2020 WL 983245 (Fed. Cl. Jan. 27, 2020).
Because we agree that the Claims Court lacked jurisdiction
over Taylor’s complaint, we affirm,.

Background
In 2010, Taylor was convicted on eight counts of tax
evasion and willful failure to file tax returns between 2003
and 2006. She was sentenced to 78 months of incarcera­
tion, which she has completed, and ordered to pay
$2,234,219 in restitution to the Internal Revenue Service
(IRS).
In 2019, Taylor filed a complaint in the Claims Court,1
seeking $15 million for the government’s taking of her as­
sets “maliciously and with full knowledge . . . without ju­
risdiction to do so.” Complaint at 1, Taylor v. United
States, No. 19-1353-T (Fed. Cl. Sept. 5, 2019). In Taylor’s
view, the government failed to comply with I.R.C. §§ 6212
and 6213 and therefore lacked entitlement to charge her
with tax evasion or to collect taxes from her. Taylor also
sought damages for fraud or unlawful imprisonment.
The Claims Court dismissed all counts of Taylor’s com­
plaint for lack of jurisdiction. Specifically, the court dis­
missed Taylor’s claims based on the Internal Revenue Code
because its jurisdiction to hear such tax cases is limited to
actions seeking the refund of taxes, penalties, and interest

1 Taylor also sought relief in other forums, including
the United States Tax Court. Relevant here, in 2018, Tay­
lor filed a petition in the Tax Court, also challenging the
IRS’s failure to comply with I.R.C. §§ 6212 and 6213, but
that petition was dismissed for lack of jurisdiction.

/
Case: 20-1473

Document: 19

Page: 3

TAYLOR V. UNITED STATES

Filed: 08/25/2020

3

paid to the government. Taylor’s unlawful imprisonment
and fraud claims were dismissed because they are tort
claims outside the jurisdiction of the Claims Court.
Taylor appealed, and we have jurisdiction over the
Claims Court’s decision under 28 U.S.C. § 1295(a)(3).
Discussion
We review the Claims Court’s decision regarding its ju­
risdiction without deference because a determination of the
court’s jurisdiction is a question of law. Hanlin v. United
States, 214 F.3d 1319, 1321 (Fed. Cir. 2000).
In this appeal, Taylor argues that her due process
rights were violated because the government failed to com­
ply with I.R.C. §§ 6212 and 6213 in the proceedings leading
to her conviction. According to Taylor, in dismissing her
; Tax Court action, the government “agreed” that it had no
jurisdiction over her from 2000 to 2018 because it failed to
send required notices. Reply Br. 4. She maintains that she
is not seeking a refund and that her claim is a specialized
: one based on I.R.C. §§ 6212 and 6213 that falls within the
- Claims Court’s jurisdiction. Reply Br. 2.
The government responds that I.R.C. §§ 6212 and 6213
are not money-mandating statutes and cannot provide ju­
risdiction over Taylor’s claims in the Claims Court. For
Taylor’s other claims, the government submits that they
are either tort claims or Fifth and Fourteenth Amendment
claims outside of the Claims Court’s jurisdiction.
We agree with the government. The Tucker Act is the
primary statute conferring tax jurisdiction on the Claims
Court. See Taylor v. United States, 303 F.3d 1357, 1359
(Fed. Cir. 2002) (citing 28 U.S.C. § 1491(a)(1) (2000)). But
the Tucker Act is only a jurisdictional statute, and “it does
not create any substantive right enforceable against the
United States for money damages.” United States v.
Testan, 424 U.S. 392, 398 (1976). Thus, “a plaintiff must
identify a separate source of substantive law that creates

Case: 20-1473

4

Document: 19

Page: 4

Filed: 08/25/2020

TAYLOR V. UNITED STATES

the right to money damages.” Fisher v. United States, 402
F.3d 1167, 1172 (Fed. Cir. 2005) (citing United States v.
Mitchell, 463 U.S. 206, 217 (1983)).
Taylor challenges the government’s compliance with
rI.R.C. §§ 6212 and 6213, but .neither of these statutes can
be fairly interpreted as money-mandating. Section 6212
provides parameters governing the IRS’s mailing of notices
of deficiency. Section 6213(a) provides a taxpayer with 90
days after the mailing of a notice of deficiency to commence
a Tax Court proceeding to challenge the deficiency. Noth­
ing in either section provides a right to damages if the gov­
ernment fails to comply with the stated requirements.
Taylor’s remaining claims fare no better. To the extent
she raises tort claims for fraud or false imprisonment or
constitutional claims for lack of due process, those claims
are outside of the Claims Court’s jurisdiction. See, e.g.,
Brown v. United States, 105 F.3d 621, 623 (Fed. Cir. 1997)
(explaining that the Claims Court lacks jurisdiction over
tort actions against the United States); Smith v. United
States, 709 F.3d 1114, 1116 (Fed. Cir. 2013) (“The law is
well settled that the Due Process clauses of both the Fifth
and Fourteenth Amendments do not mandate the payment
of money and thus do not provide a cause of action under
the Tucker Act.” (citing LeBlanc v. United States, 50 F.3d
1025, 1028 (Fed. Cir. 1995))).
After the deadline for fifing a memorandum in lieu of
oral argument had passed, Taylor filed a document in this
appeal reiterating arguments made in her opening brief.
Extension - Brief Summary, Taylor v. United States, No.
20-1473 (Fed. Cir. Aug. 17, 2020), ECF No. 18. We have
construed this fifing as a motion to file her memorandum
out of time, and the motion is granted.
Conclusion
Because Taylor has failed to allege any claim that falls
within the Claims Court’s jurisdiction, the Claims Court

i

-i

Case: 20-1473

Document: 19

Page: 5

TAYLOR v. UNITED STATES

Filed: 08/25/2020

5

was correct in dismissing her complaint under
Rule 12(b)(1) of the Rules of the United States Court of
Federal Claims. Accordingly, the judgment of the Claims
Court is affirmed.
AFFIRMED

r^k - :*

i

APPENDIX D

>

UNITED STATES TAX COURT
JANICE SUE TAYLOR,
Petitioner,
v.

)
)
)
)

)

Docket No.

279-19

)

COMMISSIONER OF INTERNAL REVENUE,

Respondent.

)

Filed Electronically

)
)

RESPONSE TO COURT'S ORDER DATED MARCH 28, 2019
IN RESPONSE to the Court's Order dated March 28, 2019,
Respondent respectfully states the following:
1.

On January 28, 2019, Petitioner filed a Petition in

the above-captioned case stating that she had not received-a
notice of deficiency or notice of determination for the 2000
through 2018 tax years, inclusive.
2.

Respondent filed an Answer in response to Petitioner's

Petition on March 27, 2019.
3.

The Court issued an Order on March 28, 2019 requesting

Respondent to file a response to the Order attaching a complete
copy of the notice of deficiency and/or notice of determination
giving rise to this case.
4.

As explained more fully in Respondent's Motion to

Dismiss for Lack of Jurisdiction and to Impose a Penalty under
I.R.C. § 6673, filed concurrently with this Response, Respondent^
.has diligently searched its records and has determined that no .
•'K

i

Docket No. 279-19

2

Notices of deficiency or notices of determination have been
issued to Petitioner that would give rise to jurisdiction in
■V

this case.

MICHAEL J. DESMOND
. Chief Counsel
Internal Revenue Service

Date:

APR 19 2019
TRISHA S. FARROW
Attorney
(Small Business/Self-Empioyed)
Tax Court Bar No. FT0216
M/S 2200 PX
4041 N Central Ave.
STE 112
Phoenix, Arizona 85012
Telephone: 602-636-9622
Trisha.S.FarrowOirscounsel.
treas.gov

OF COUNSEL:
BRUCE K. MENEELY
Division Counsel
(Small Business/Seif-Employed)
EDWIN A. HERRERA
Area Counsel
(Small Business/Self-Employed:Area 5)
RACHAEL J. ZEPEDA
Associate Area Counsel
(Small Business/Seif-Employed)

i

